Docket No:

UNITED STATES SUPREME COURT

United States,
Plaintiff-Respondent,
V.

BRAIN K. ROGERS,
Defendant-Petitioner.

On Petition for Writ of Certiorari
TO THE UNITED STATES COURT OF APPEALS FOR THE FIRST CIRCUIT

PETITION FOR WRIT OF CERTIORARI

ROBERT C. ANDREWS
Attorney for Brian Rogers
First Circuit Bar Number 88418
117 Auburn Street Suite 201
Portland, ME 04103
Tel. 207-879-9850
Fax 207-879-1883
E-mail rob.andrews.esq@gmail.com

STATEMENT OF THE QUESTIONS PRESENTED
1.

Are admissions made during a polygraph examination required by sex
offender treatment compelled for purposes of the Fifth Amendment when
failing the examination results in being suspended from sex offender
treatment as required by conditions of supervised release when failure to
participate in sex offender treatment results in revocation of supervised
release.

1

TABLE OF CONTENTS
Page
STATEMENT OF THE QUESTIONS PRESENTED ...................................................................... 1.
TABLE OF CONTENTS ............................................................................................................. 2
TABLE OF AUTHORITIES ....................................................................................................... 3
CITATIONS OF OPINIONS AND ORDERS ................................................................................... 4.
JURISDICTIONAL STATEMENT ................................................................................................... 5.
PROVISIONS OF LAW .................................................................................................................... 6.
STATEMENT OF FACTS ................................................................................................................. 7.
ARGUMENT.................................................................................................................................... 20.

I.

The First Circuit Court of Appeals was incorrect when it concluded
that the threat of revocation of supervised release for being expelled
from sex offender treatment was not compulsion subject to the penalty
exception making the Fifth Amendment right to be free from selfincrimination automatic and thereby creating a circuit split with the
Ninth and Tenth Circuits. ................................................................................... 20

II.

The Fifth Amendment prohibits the use of Mr. Rogers’s statements made
during a polygraph because of the compulsion caused by the threat of an
additional term of prison to either revoke his supervised release or
terminate him from the treatment program required by his conditions of
supervised release. ................................................................................................ 24

III. The United States Supreme Court should grant the Petition for a Writ of
Certiorari to resolve the significant issues that surround this mature and
significant split among the circuits and states ...................................................... 26
CONCLUSION .......................................................................................................................... 27

2

TABLE OF AUTHORITIES
UNITED STATES SUPREME COURT CASES
Garrity v. New Jersey, 385 U.S. 493 (1967)………………………………………………….25
McKune v. Lile, 536 U.S. 24 (2002)…………………………………………..18, 20, 22, 23, 24
Minnesota v. Murphy, 465 U.S. 420 (1984)………………………………………18, 19, 20, 23
UNITED STATES COURT OF APPEALS
United States v. Antelope, 395 F.3d 1128 (9th Cir. 2005)…………………………………….20
United States v. Bahr, 730 F.3d 963 (9th Cir. 2013)…………………………………………..21
United States v. Brian K. Rogers, 988 F.3d 106 (1st Cir. 2021)……………………….Passim
United States v. Trimble, --F.4th-- (8th Cir 2021)………………………………………………25
United States v. Von Behren, 822 F.3d 1139 (8th Cir. 2016)………………………………21, 22
United States v. York, 357 F.3d 14 (1st Cir. 2004)…………………………………………19, 21

STATUTES
18 U.S.C. § 3231 ............................................................................................................................. 5
18 U.S.C. § 2252A........................................................................................................................... 5
28 U.S.C. § 1291 ............................................................................................................................. 5

3

CITATIONS OF OPINIONS AND ORDERS
United States v. D No. 2:08-cr-00193-GZS, 2018 Docket Entry 184; and United States v. Brian
K. Rogers, 988 F.3d 106 (1st Cir. 2021).

4

JURISDICTIONAL STATEMENT
Review on Petition for Writ of Certiorari. The Petitioner makes this petition based
on the jurisdiction conferred by Article III, Section 1 of the United States Constitution and
Rule 10 of the Supreme Court Rules. The Decision in the United States Court of Appeals
for the First Circuit deals with an important federal question which conflicts with other
decisions of the Supreme Court of the United States. This petition has been timely filed
within 150 days from February 19, 2021.
Appellate Jurisdiction. The Petitioner takes this appeal as of right in a criminal
prosecution under 28 U.S.C. § 1291 and the jurisdiction established by Federal Rule of
Appellate Procedure 4. Pursuant to Fed. R. App. P. 4(b), the notice of appeal must be filed in
the district court within 14 days after entry of the order or judgment appealed. The notice of
appeal in this matter was timely filed on November 1, 2018.
Original Jurisdiction. The indictment in this matter resulted in a single conviction of the
Defendant/Appellant with one count in violation of 18 U.S.C. § 2252A(a)(5)(B) and 18 U.S.C. §
2256(8)(A). District Courts of the United States have original jurisdiction of all offenses against the
laws of the United States. See 18 U.S.C. § 3231.

5

PROVISIONS OF LAW
US.CA. Const. Amend. V (West 2018)
No person shall be held to answer for a capital, or otherwise infamous crime, unless on
a presentment or indictment of a grand jury, except in cases arising in the land or naval
forces, or in the militia, when in actual service in time of war or public danger; nor
shall any person be subject for the same offense to be twice put in jeopardy of life or
limb; nor shall be compelled in any criminal case to be a witness against himself, nor
be deprived of life, liberty, or property, without due process of law; nor shall private
property be taken for public use, without just compensation.

6

STATEMENT OF FACTS
On November 1, 2018, Judge George Z. Singal revoked the supervised release of Brian
Rogers and sentenced him to six months to the Bureau of Prisons. Appendix hereinafter A at 22.
United States Probation sought to revoke Mr. Rogers’s supervised release for two reasons: Violation
of Special Condition number two that required Mr. Rogers to participate in a computer and internet
monitoring program and Special Condition number three that required Mr. Rogers to participate in
sex offender treatment. A at 24-25. The District Court reevoked Mr. Rogers’s supervised release
after it found no compulsion in the use of polygraph examinations that resulted in the evidence that
formed the basis of both violations. A at 122.

THE FACTS PRESENTED TO THE COURT OF APPEALS BY MR. ROGERS

The Petition to revoke Mr. Rogers’s supervised release detailed two violations. The Petition
alleged a violation of Special Condition Number two: The defendant shall comply with the
requirements of the Computer and Internet Monitoring Program (which may include partial or full
restriction of computer(s), internet/intranet, and/or internet capable devices), and shall pay for
services, directly to the monitoring company. The defendant shall submit to periodic unannounced
examinations of his/her computer(s), storage media, and/or other electronic or internet capable
device(s) performed by the probation officer based on reasonable suspicion of contraband evidence
or a violation of supervision. This may include the retrieval and copying of any prohibited data
and/or the removal of such system(s) for the purpose of conducting a more thorough inspection. On
September 12, 2018, Rogers admitted that he purchased and used a Nintendo 2DS, an internet-

7

accessible gaming system, from approximately May 2017, until December 2017. Rogers stated he
used this device to access the internet. Rogers did not have authorization from the Probation Office
to use this device. Therefore, Rogers had unmonitored access to the internet for several months in
violation of the computer internet and monitoring program (CIMP). The petition also alleged a
violation of Special Condition Three: Defendant shall fully participate in sex offender treatment as
directed by the supervising officer. Defendant shall pay/co-pay for services during such treatment to
the supervising officer’s satisfaction. He/she shall abide by all policies and procedures of that
program. On September 11, 2018, Rogers was suspended from sex offender treatment as a result of
admitting that he used an unauthorized internet accessible device to access pornography on the
internet, using search terms specifically looking for pornography with teenagers. Viewing
pornography is a violation of Rogers’ sex offender treatment contract. A at 24-25.
This was the second time Mr. Rogers’s supervised release had been revoked. United States
Probation also sought to revoke Mr. Rogers’s supervised release in January of 2017. The previous
petition also alleged violations Computer and Internet Monitoring Program and failure to participate
in sex offender treatment. Mr. Rogers was sentenced to time served for the previous violation on
May 3, 2017. The violations for the first revocation were very similar to the violations alleged in the
second petition to revoke Mr. Rogers’s supervised release. A at 130-131.
These conditions had been originally imposed on Mr. Rogers through the judgment in his
underlying case on May 16, 2012. The Judgment provided the following language special condition
1: “The defendant shall comply with the requirements of the Computer and Internet Monitoring
Program (which may include partial or full restriction of computer(s), internet/intranet, and/or
internet capable devices), and shall pay for services, directly to the monitoring company. The
defendant shall submit to periodic unannounced examinations of his/her computer(s), storage media,

8

and/or other electronic or internet capable device(s) performed by the probation officer based on
reasonable suspicion of contraband evidence or a violation of supervision. This may include the
retrieval and copying of any prohibited data and/or the removal of such system(s) for the purpose of
conducting a more thorough inspection. The Judgment also provided the following language for
Special Condition 3: Defendant shall fully participate in sex offender treatment as directed by the
supervising officer. He shall scrupulously abide by all policies and procedures of that program.
During sex offender treatment, Defendant shall, if required by the therapeutic program, undergo
periodic random polygraph examinations to ensure compliance with the therapeutic program
requirements. No violation proceedings will arise solely on Defendant’s failure to pass a polygraph
examination or on Defendant’s refusal to answer polygraph questions based on 5th Amendment
grounds. A at 141.
The first revocation Judgment changed the special conditions and made the Computer and
Internet Monitoring Program Special Condition number 2 and Participation in Sex Offender
Treatment special condition 3 and made polygraph examinations special condition 4. Special
condition four provided, “Defendant shall submit to periodic random polygraph examinations as
directed by the probation officer to assist in treatment and/or case planning related to behaviors
potentially associated with sex offense conduct. No violation proceedings will arise solely on
Defendant’s failure to pass a polygraph examination or on Defendant’s refusal to answer polygraph
questions based on 5th Amendment grounds. Such an event could, however, generate a separate
investigation. Defendant pay/co-pay for such services to the supervising officer’s satisfaction.” A at
135.
United States Probation described the problems with Mr. Rogers’s compliance with the
special conditions of his supervised release. Revocation Report hereinafter. On June 6, 2018,

9

Rogers participated in a maintenance polygraph examination. During that exam, Rogers was
asked if he, "accessed or viewed any X-rated pornography during the last sixteen months." He
answered, "No," and the results were determined to be deceptive. He was also asked if he,
"viewed the bare sexual organs of any prepubescent minors since [his] last exam." He
answered, "No," and the results were determined to be inconclusive. Following that exam,
Rogers admitted to the polygraph examiner that he viewed pornography, one time, on his
roommate's cellular telephone. On August 27, 2018, Rogers participated in an issue-specific
polygraph examination. Prior to that exam, Rogers disclosed to the polygraph examiner that he
purchased a Nintendo 2DS in May 2017. He stated he used that device to access the internet,
and in August 2017, he began using it to view adult pornography. Rogers denied using this
device to view child pornography. He stated he used the following search terms to locate
pornography: female teens masturbating, female solo teens, female Asian teens, and female
ebony teens. He stated he sold that device in December 2017. During the exam, Rogers was
asked if he had, "purposely accessed pre-pubescent minors online since August 2017." He
answered, "No," and the results were determined to be deceptive. He was also asked if he,
"personally accessed X-rated pornography since January l, 2018," and, "Besides that Nintendo,
did [he] personally use another secret internet device to view pornography in the past year."
He answered, ''No," to both questions, and the results were determined to be inconclusive.
According to United States Probation’s description, On August 31, 2018, the Probation
Officer contacted the sex offender treatment provider, Shawn Rodgers, to discuss Rogers's
behavior to date. Mr. Rodgers stated he wanted to meet with Rogers during their next
scheduled treatment session, on September 4, 2018, before making a decision regarding a
potential suspension from treatment. He stated his decision would be determined by Rogers'

10

attitude and behavior during that session. At the next treatment session, Mr. Rodgers reported
that he and the group members instructed Rogers to reach out to the undersigned Officer
regarding his disclosures made during the polygraph examination and to work with this Officer
to address the matter. Mr. Rodgers said that if Rogers contacted the Probation officer prior to
the next treatment session and showed some motivation he would be willing to continue to
work with him. But if Mr. Rogers did not contact the Probation Officer then Rogers would be
suspended from treatment. Rogers failed to contact the Probation Officer and was suspended
from treatment on September 11, 2018. According to the report, the Probation Officer spoke
with Rogers later that day, and asked him why he did not contact this Officer as he was
instructed to do during the previous treatment session. Rogers stated he did not trust Probation,
the clinician, or the treatment group. He stated he felt his behaviors did not have any positive
impact on his life, and that he would rather be in custody than continue on supervised release.
During this conversation, Rogers admitted he used the Nintendo to access the internet and he
did not report having this device to Probation. He stated he used the Nintendo to view
pornography, but denied seeking or viewing child pornography. He stated using the term
"teen" in his searches was not an attempt to view child pornography.
Warren Ferland administered one of the polygraphs that Mr. Rogers failed. Mr. Ferland
described the polygraph examination process: “it's a three-phase interview which starts off as a pretest interview where there's an introduction and a chance to go over the consent form. A at 34. After
the consent a very quick suitability to make sure he's medically okay to be tested, and then a brief
explanation of how the polygraph works. A at 35. In this particular case, I believe it was his either
fifth or sixth polygraph examination so that was very brief. He already -- didn't need to go over that.
And we simply just went into the focus of what the polygraph examination was about. Mr. Ferland

11

testified that, “[t]he entire polygraph examination took three hours and 16 minutes,” and two hours
and 15 minutes, was the pre-test interview. A at 35.
During this pre-test interview, Mr. Ferland testified that Mr. Rogers made several
admissions: “[W]e talked about the reason that he failed his last test, and he made additional
[admissions] regarding use of pornography, and he had admitted that he looked at more pornography
than what he had told my partner Mike Ranhoff on his prior polygraph, and went on to explain that
he had a secret device, I believe it was some sort of Nintendo device that he had had, and he went
through a period of about three months of looking at pornography on a regular basis.” Mr. Rogers
also admitted to Mr. Ferland that he had been using suggestive search terms to find this
pornography: “We talked about the types of search terms that he'd used, and he referred to the search
terms all -- I've got it written down, but basically teenagers masturbating and different facets of that
is what he was using for search terms.” Mr. Ferland also expanded on the extent of Mr. Rogers’s
viewing of pornography: “He admitted that he looked at pornography on other people's devices that
had shown him some pornography.” A at 40.
During the portion of the polygraph examination, where Mr. Rogers was connected to the
polygraph machine that measures various physiological indicators like breathing, blood flow, and
electrodermal activity that Mr. Ferland called channels, Mr. Ferland concluded that Mr. Rogers was
deceptive. A at 37 During this portion of the examination Mr. Rogers was asked some prepared
questions: “The three relevant questions I asked him on the test was: Besides someone showing you,
have you personally accessed X-rated pornography since January 1st? The next question was:
Besides that Nintendo, did you personally use another secret Internet device to view pornography in
the past year? And third question was: Have you purposely accessed prepubescent minors online
since August 2017?” Mr. Ferland characterized Mr. Rogers’s polygraph examination as a failure:

12

“Overall his -- he failed this polygraph test, and the question he reacted to the strongest was question
three, which is: Have you purposely accessed prepubescent minors online since August of 2017?”
These results were reported to Mr. Rogers’s Probation Officer. A at 45.
From the polygraph examination report, the Probation Officer learned of Mr. Rogers’s failure
to comply with both his treatment conditions and his supervision conditions. A at 65. The Probation
Officer used this information in assessing what to do with Mr. Rogers: “During the pre-test I learned
that Mr. Rogers made the disclosure that in approximately May of 2017 he purchased an Internetaccessible Nintendo and he used that until approximately December 2017. During that window of
when he owned that device, for approximately three months he used it to view pornography. The
result of that test was also considered a failed test. He had one question that was deceptive and two
that were inconclusive.” A at 66. This information prompted a discussion with the Probation Officer,
the Probation Officer’s supervisors, the treatment provider and his supervisors. A at 56.
The discussion about what to do with Mr. Rogers occurred sometime around August 31,
2018. A at 67. The results of this discussion as characterized by the Probation Officer were that they
decided to take no formal action because the treatment provider wanted to have the next session with
Mr. Rogers which was scheduled for September 4, 2018. A at 67. The plan was to have the treatment
provider direct Mr. Rogers if he continued to be unmotivated and unwilling to accept responsibility
to try to address that within the group and have Mr. Rogers seek out the help of the probation Officer
prior to the following treatment session on September 11, 2018. A at 67. When Mr. Rogers failed to
contact the probation officer seeking her help, he was suspended from sex offender treatment and the
petition in this case was filed on September 12, 2018. A at 69.
The Sex Offender Treatment Contract had provided Mr. Rogers with a warning about how
the information from the polygraph would be used. The warning was provided as part of the sex

13

offender contract: “It is important for you to know how information that you disclose during the
polygraph exam or any time in treatment might be used to increase your supervision level by your
PO, suspension or revocation, and can also be used to investigate a crime that you committed but
was never disclosed until now or for civil commitment.” Mr. Rogers was aware from the warning
that his supervision could be revoked if he failed to comply with the polygraph examination. A at
81-82.
The role of polygraph examinations is to overcome the resistance to disclosing information.
A at 106. Shawn Rodgers, the treatment provider characterized this function within the treatment
model: “Polygraphs are a part of the treatment model we use, which is the containment model. In
part they're used to get a sense of what behavior a client may be engaging in that they're not
volunteering in treatment to get a sense of whether or not they're engaged in any behaviors of
concern, if they're engaging in any sexual deviancy, for instance, if there are any more victims that
haven't been disclosed.” A at 106. Mr. Rogers understood that he was trapped and had no choices
stating to the Probation Officer that “he didn’t think it would do any good,” when asked why he did
not approach the Probation Officer for help. A at 68.
After hearing the evidence Judge Singal found Mr. Rogers violated the terms of his
supervised release: “All right, I don't find any compulsion here. The order that I gave that he had to
take polygraphs cabined within the U.S. versus York framework I think was perfectly legal.
Apparently counsel thought it was legal, too. The compulsion, if any, was directed by me through
my order. Counsel and the defendant failed to appear or even object -- appeal or even object to that
order. I believe there's a waiver there; but, regardless, I don't believe there's illegal compulsion. In
addition, the defendant was given notice that he didn't even have to take the polygraph. He fully
consented. There's no issue of compulsion or any evidence of compulsion that he hesitated in any

14

respect. Defendant is required to be honest with their probation officer. And for the defendant to be
dishonest with the probation officer and then say, well, my statements proving my dishonesty can't
be used to violate supervised release is in my view silliness. And it represents the type of behavior
that is almost contemptuous with my orders with regard to his following the rules of supervised
release. What it results in is someone who says yes, I violated the terms of supervised release, what
are you going to do about it. That's really where it ends up. And that's not the way the system works.
I find that there's nothing illegal about what occurred here, and his statements are certainly usable
here. I also find that he violated both special condition 2 with regard to his admission that he used an
Internet-capable device and that he accessed the Internet. I also find that he violated his special
condition 3 that he fully participate in sex offender treatment.” A at 122-123.

THE FACTS FROM THE COURT OF APPEALS OPINION

In 2012, a jury convicted Rogers of one count of possession of child pornography in violation
of 18 U.S.C. § 2252A(a)(5) (B), (b)(2). Later that year, the district court sentenced him to sixty
months of imprisonment and eight years of supervised release. As special conditions of his release,
he was required to “participate and comply with the requirements of the Computer and Internet
Monitoring Program” and to “fully participate in sex offender treatment as directed by the
supervising officer.” Rogers was released in 2013.
In 2017, the court revoked Rogers's supervised release after he admitted to violating the two
aforementioned special conditions. The court sentenced him to time served and an additional eight
years of supervised release, with the same two special conditions as before. New for Rogers's second
term of supervised release, his conditions of release also included a requirement that he “submit to

15

periodic random polygraph examinations as directed by the probation officer to assist in treatment
and/or case planning related to behaviors potentially associated with sex offense conduct.” The
condition disclaimed that “[n]o violation proceedings will arise solely on the defendant's failure to
pass a polygraph examination, or on the defendant's refusal to answer polygraph questions based on
5th amendment grounds,” but it added that “[s]uch an event could, however, generate a separate
investigation.”
Rogers participated in one such polygraph examination on June 2, 2018. The examiner asked
whether Rogers had “accessed or viewed any X-rated pornography during the last sixteen months,”
and Rogers's negative response was determined to be deceptive. The examiner also asked Rogers
whether he had viewed pornography featuring prepubescent minors, and Rogers's negative response
to this question was deemed inconclusive. In an interview after the polygraph examination, Rogers
admitted that he had used his roommate's cellular telephone to view pornography on one occasion.
A professional polygraph examiner performed a follow-up polygraph examination of Rogers
on August 27, 2018. The examiner did not verbally tell Rogers that he had a right not to participate,
but Rogers signed a consent form that indicated that Rogers “consent[ed] voluntarily” to the
examination and understood that he did “not have to take this examination ... and [he could] stop this
examination at any time.” As part of a preliminary interview lasting over two hours, Rogers told the
examiner that he had used an undisclosed internet-enabled Nintendo 2DS video gaming system to
view pornography on a regular basis for a period of three months. During the examination proper,
the examiner asked Rogers whether “[b]esides someone showing [him],” he “personally accessed Xrated pornography since January 1st”; whether “[b]esides that Nintendo,” he “personally use[d]
another secret Internet device to view pornography in the past year”; and whether he “purposely
accessed prepubescent minors online since August 2017.” Rogers answered “No” to all three

16

questions but was determined to have failed the polygraph examination.
Rogers's probation officer was informed of his confessions to the second examiner and of his
having failed the polygraph examination. The probation officer discussed how to handle Rogers's
confessions with Rogers's treating clinician on August 31, 2018. The confessions and polygraph
failures compounded Rogers's already poor performance in sex offender treatment, throughout which
he had neglected to share experiences when directed to do so in group sessions, failed to complete
assignments in his workbook, reported thoughts about harming another individual, and generally
demonstrated a lack of motivation. Rogers's probation officer and his clinician decided that the
clinician would discuss Rogers's confessions and polygraph, as well as his overall performance in
the treatment program, at his next scheduled appointment on September 4, 2018.
At the appointment, the clinician observed that Rogers “continued to be unmotivated and
unwilling to accept responsibility.” The clinician directed Rogers to contact his probation officer
before Rogers's next treatment session on September 11, 2018, in order to continue sex offender
treatment. Rogers failed to do so, and so, after discussion with the probation officer, the clinician
suspended Rogers from sex offender treatment. The probation officer then contacted Rogers, and
during the resultant conversation, Rogers admitted to her that he had used the Nintendo 2DS to view
pornography and “said that he doesn't trust treatment, he doesn't trust probation, and ... he would
rather be in custody than on supervision.” After that conversation, the probation officer initiated the
internal process for filing a petition to revoke Rogers's supervised release.
The probation officer testified that she had used the information gained at Rogers's polygraph
examination, as well as the fact that he was suspended from sex offender treatment, to justify filing a
petition to revoke his supervised release. She also acknowledged that she had no other evidence that
Rogers had used an unmonitored, internet-capable device outside of Rogers's admissions in the

17

interview conducted as part of the polygraph examinations and in his subsequent conversation with
the probation officer. She stated, however, that she had additional evidence of Rogers's failure to
fully participate in his sex offender treatment program, citing specifically Rogers's failure to reach
out to her when directed to do so by his clinician, as well as Rogers's failure to complete certain
assigned activities and avowed lack of motivation to continue participating in treatment.
On November 1, 2018, after an evidentiary hearing, the district court revoked Rogers's
supervised release, sentencing him to six months in prison and eight additional years of supervised
release. The court based its judgment on Rogers's violations of the special conditions that he abide
by the Computer and Internet Monitoring Program and that he fully participate in the sex offender
treatment program.

THE DECISION BELOW

The First Circuit interpreted Minnesota v. Murphy, 465 U.S. 420 (1984) as creating an
exception to the self-executing Fifth Amendment penalty cases. The First Circuit reasoned that the
condition requiring polygraph examinations also had a provision that prevented revocation based
solely on the assertion of Fifth Amendment Rights not to be a witness against oneself. In the First
Circuit’s view, this provision provided people subject to the polygraph examination requirement a
choice to remain silent.
Having established that the provision providing for no revocation on Fifth Amendment
grounds was an exception to the penalty cases, the First Circuit went on to explain that Mr. Rogers
had a real choice to remain silent and failed to execute his Fifth Amendment right. The First Circuit
interpreted Justice O’Connor’s opinion in McKune v. Lile, 536 U.S. 24 (2002) to require the penalty

18

to apply just for the assertion of the Fifth Amendment right to be free of self-incrimination for the
Fifth Amendment to be self-executing. The United States Court of Appeals for the First Circuit
upheld the District Court’s determination that there was no compulsion in Mr. Rogers’s case.
ARGUMENT
I.

The First Circuit Court of Appeals was incorrect when it concluded that the
threat of revocation of supervised release for being expelled from sex
offender treatment was not compulsion subject to the penalty exception
making the Fifth Amendment right to be free from self-incrimination
automatic and thereby creating a circuit split with the Ninth and Tenth
Circuits.

The First Circuit has not addressed the implications of the penalty exception to statements
made in in the context of sex offender treatment programs until Mr. Rogers’s appeal. The First
Circuit had, however, previously adopted an interpretation of the Fifth Amendment in the context of
sex offender treatment designed to avoid the classic penalty situation:
Under Murphy, if York can assert his Fifth Amendment privilege without risking
revocation, he does not face a “classic penalty situation,” 465 U.S. at 435 & n. 7, 104
S.Ct. 1136, and his answers will not be considered “compelled” within the meaning
of the Fifth Amendment unless he is forced to answer over his valid assertion of
privilege, see id. at 429, 104 S.Ct. 1136. At oral argument, the government conceded
that this is the best interpretation and agreed that it is acceptable; York likewise found
it preferable. Construing the order in this way also guarantees that if York and his
probation officers dispute whether he refused to answer a question on valid Fifth
Amendment grounds, York will be entitled to a hearing before a court before any
penalty can be imposed.
United States v. York, 357 F.3d 14, 25 (1st Cir. 2004). Because the incriminating statements had not
yet been elicited in York, it was not necessary to resolve how the penalty cases might affect the
outcome. The York panel chose to interpret the polygraph condition of Mr. York’s supervised release
to mean that polygraph statements could not be used in subsequent revocation proceedings. This
case is distinguished from those facts. Mr. Rogers had already admitted the possession of an

19

electronic device that was not subject to monitoring in violation of the supervision conditions
imposed on him by the Court. While the Court might be tempted to apply note 7 of Murphy
summarily, that does not resolve the incriminating nature of the admission or the compulsion used to
extract the admission. Mr. Rogers asserts that polygraph examination in the context of sex offender
treatment programs is a form of compulsion so severe that it renders any statement made during such
an exam involuntary and inadmissible in any proceeding.
The Court of Appeals for the Ninth Circuit has been more direct in its treatment of the Fifth
Amendment in the context of sex offender treatment programs. The penalty of revocation of
supervised release amounts to compulsion:
Justice O'Connor made clear in her McKune concurrence that she would not have
found a penalty of “longer incarceration” such as that here to be constitutionally
permissible. Id. at 52, 122 S.Ct. 2017. The strength of Justice O'Connor's opinion as
precedent is reinforced because it seems certain that the four dissenters in McKune,
who argued that a loss of discretionary privileges and a transfer to less desirable
living quarters under similar circumstances were sufficiently compulsive to violate
Lile's privilege against self-incrimination, would find a Fifth Amendment violation
where the district court revoked Antelope's conditional liberty and sentenced him to
an additional ten months in prison. On the basis of McKune, we hold that Antelope's
privilege against self-incrimination was violated because Antelope was sentenced to a
longer prison term for refusing to comply with SABER's disclosure requirements.
United States v. Antelope, 395 F.3d 1128, 1138 (9th Cir. 2005). Antelope held that longer prison
sentences based on the revocation of supervised release violated the petitioner’s Fifth Amendment
rights. The privilege is not premised on his conviction status but on the compulsion imposed on him
by his sex offender treatment. The fact that he refused to incriminate himself is not relevant to the
Fifth Amendment analysis in the context of revocation of supervised release.
The Ninth Circuit has adopted a rule that conflicts with the rule adopted in Mr. Rogers’s case
for the use of statements gained through a treatment program required by conditions of supervised
release. The Ninth Circuit holds that statements gained through sex offender treatment are

20

compelled:
Although Bahr did not assert his Fifth Amendment right against self-incrimination at
the time of the disclosures, that right is self-executing where its assertion “is
penalized so as to foreclose a free choice.” Minnesota v. Murphy, 465 U.S. 420, 434,
104 S.Ct. 1136, 79 L.Ed.2d 409 (1984) (internal quotation and alteration omitted).
When the government conditions continued supervised release on compliance with a
treatment program requiring full disclosure of past sexual misconduct, with no
provision of immunity for disclosed conduct, it unconstitutionally compels selfincrimination. Antelope, 395 F.3d at 1133–39. Revocation of supervised release is not
necessary to violate the right; the threat of revocation is itself sufficient to violate the
privilege and make the resultant statements inadmissible.
United States v. Bahr, 730 F.3d 963, 966 (9th Cir. 2013). The Ninth Circuit’s analysis is exactly the
analysis Mr. Rogers presented to the First Circuit. Mr. Rogers asserted that the threat of revocation
alone was sufficient to compel the statements and that it did not matter whether the revocation was
based on failing the polygraph examination or expulsion from the treatment program. Either
situation forced the same conclusion.
The Tenth Circuit has similarly adopted a rule that conflicts with the First Circuit’s holding
in Mr. Rogers’s case. Like the Ninth Circuit, the Tenth Circuit finds the threat of revocation of
supervised release to amount to compulsion to which the penalty cases apply:
Murphy makes this case an easy one. It recognizes that a threat to revoke one's
probation for properly invoking his Fifth Amendment privilege is the type of
compulsion the state may not constitutionally impose. 465 U.S. at 426, 104 S.Ct.
1136. The government asserted here that it would seek Mr. Von Behren's remand to
prison if he refused to answer incriminating sexual polygraph questions because that
refusal would (and did) ultimately result in his termination from the sex offender
treatment program. The government's threat constituted unconstitutional compulsion
within the meaning of the Fifth Amendment. See United States v. York, 357 F.3d 14,
24–25 (1st Cir.2004) (recognizing it “would be constitutionally problematic” if
supervised release provision requiring sex offender treatment “require[d] York to
submit to polygraph testing ... so that York's refusal to answer any questions—even
on valid Fifth Amendment grounds—could constitute a basis for revocation”). The
solution to this problem was suggested in Murphy over thirty years ago: “[A] state
may validly insist on answers to even incriminating questions and hence sensibly
administer its probation system, as long as it recognizes that the required answers
may not be used in a criminal proceeding and thus eliminates the threat of

21

incrimination.” Id. at 435 n. 7, 104 S.Ct. 1136; see also Turley, 414 U.S. at 84–85, 94
S.Ct. 316 (state may compel waiver of Fifth Amendment privilege only by grant of
immunity from prosecution).
United States v. Von Behren, 822 F.3d 1139, 1150 (8th Cir. 2016). Mr. Rogers also presented the
same analysis used by the Tenth Circuit. The Tenth Circuit directly addressed the theory proposed
by Mr. Rogers that it did not matter if the statements themselves were used as the basis for a
violation or that the statements were used to justify termination from sex offender treatment. Again,
the same precedent was used to come to a different result in the First Circuit.
II.

The Fifth Amendment prohibits the use of Mr. Rogers’s statements made during
his polygraph examination because of the compulsion caused by the threat of an
additional term of prison to either revoke his supervised release or terminate
him from the treatment program require by his conditions of supervised release.

In McKune v. Lile, Justice Kennedy’s plurality opinion created uncertainty over the use of
incriminating statements made as part of sex offender treatment programs. At the root of this
uncertainty, was the due process principle of compulsion:
The State, however, does not offer immunity. So the central question becomes
whether the State’s program, and the consequences for nonparticipation in it, combine
to create a compulsion that encumbers the constitutional right. If there is compulsion,
the State cannot continue the program in its present form; and the alternatives, as will
be discussed, defeat the program’s objectives.
McKune v. Lile, 536 U.S. 24, 35 (2002). Inherent in the Court’s proposition that compulsion could
not be a part of a constitutionally permissible rehabilitation program is the principle that due process
does not allow the use of involuntary statements. McKune does not, by itself, resolve the tension
between Fifth Amendment principles and the use of compelled testimony during revocation of
supervised release proceedings (or their analogous probation revocation proceedings in the states). It
does, however, call into question under what circumstances statements that are the result of
compulsion may be used. McKune suggests that compulsion is incompatible with due process, and

22

that where a program results in compulsion, that program should not survive due process scrutiny.
Mr. Rogers asserts that statements made during a polygraph examination required as part of sex
offender treatment are the result of compulsion and therefore involuntary.
The precedent is not without conflict in these circumstances. The Supreme Court long
ago suggested that the Fifth Amendment was beyond the reach of convicted persons suspected of
probation violations by their supervising officers:
The situation would be different if the questions put to a probationer were relevant to
his probationary status and posed no realistic threat of incrimination in a separate
criminal proceeding. If, for example, a residential restriction were imposed as a
condition of probation, it would appear unlikely that a violation of that condition
would be a criminal act. Hence, a claim of the Fifth Amendment privilege in response
to questions relating to a residential condition could not validly rest on the ground
that the answer might be used to incriminate if the probationer was tried for another
crime. Neither, in our view, would the privilege be available on the ground that
answering such questions might reveal a violation of the residential requirement and
result in the termination of probation. Although a revocation proceeding must
comport with the requirements of due process, it is not a criminal
proceeding. Gagnon v. Scarpelli, 411 U.S. 778, 782 (1973); United
States v. Johnson, 455 F.2d 932, 933 (CA5), cert. denied, 409 U.S. 856 (1972). Just
as there is no right to a jury trial before probation may be revoked, neither is the
privilege against compelled self-incrimination available to a probationer. It follows
that whether or not the answer to a question about a residential requirement is
compelled by the threat of revocation, there can be no valid claim of the privilege on
the ground that the information sought can be used in revocation proceedings.
Minnesota v. Murphy, 465 U.S. 420, 435 n.7 (1984). It seems unlikely that the Supreme Court
meant to establish a probation exception for compelled statements no matter what coercion was used
to obtain the statements. This conclusion is supported by the fact that the Court insists that “a
revocation proceeding must comport with the requirements of due process.” Murphy itself maintains
the vitality of the classic penalty situation, a fact not lost on either the First Circuit’s or the Ninth
Circuit’s treatment of the Fifth Amendment in the context of sex offender treatment programs.
Murphy, though, does little to explain its relationship to the penalty cases: although the self-

23

executing privilege applied in Garrity v. New Jersey, 385 U.S. 493 (1967) is mentioned, Murphy
never explains the distinction.
Justice O’Connor would describe this very problem in the concurrence that established the
plurality in McKune. In her view, Murphy did nothing to resolve the problem with the penalty line of
cases:
The first three of these so-called “penalty cases” involved the potential loss of one’s
livelihood, either through the loss of employment, loss of a professional license
essential to employment, or loss of business through government contracts. In
Lefkowitz, we held that the loss of government contracts was constitutionally
equivalent to the loss of a profession because “[a government contractor] lives off his
contracting fees just as surely as a state employee lives off his salary.” 414 U. S., at
83; contra, post, at 68, n. 11. To support oneself in one’s chosen profession is one of
the most important abilities a person can have. A choice between incriminating
oneself and being deprived of one’s livelihood is the very sort of choice that is likely
to compel someone to be a witness against himself. The choice presented in the last
case, Cunningham, implicated not only political influence and prestige, but also the
First Amendment right to run for office and to participate in political associations.
431 U. S., at 807–808. In holding that the penalties in that case constituted
compulsion for Fifth Amendment purposes, we properly referred to those
consequences as “grave.” Id., at 807.
McKune v. Lile, 536 U.S. 24, 50 (2002) (Justice O’Connor concurring). Justice O’Connor
specifically criticized the notion that conviction made a difference in the use of compelled
testimony. Instead, she suggested that the real issue was the compulsion itself, calling any penalty
that compelled a person to be a witness against themselves illegitimate. Mr. Rogers urges the Court
to apply Garrity v. New Jersey to the statements made during his polygraph examination, which was
a mandatory part of his sex offender treatment program, and in so doing resolve the circuit conflict
created by the First Circuit.
Mr. Rogers’s request is based on the remedial action taken in the penalty cases. Mr. Rogers
asserts that the compulsion justifies a self-executing privilege:
The choice given petitioners was either to forfeit their jobs or to incriminate

24

themselves. The option to lose their means of livelihood or to pay the penalty of selfincrimination is the antithesis of free choice to speak out or to remain silent. That
practice, like interrogation practices we reviewed in Miranda v. Arizona, 384 U. S.
436, 384 U. S. 464-465, is "likely to exert such pressure upon an individual as to
disable him from making a free and rational choice." We think the statements were
infected by the coercion inherent in this scheme of questioning and cannot be
sustained as voluntary under our prior decisions.
Garrity v. New Jersey, 385 U.S. 493, 497-498 (1967). This Court applied the privilege despite the
fact that no claim was made based on compulsion. If anything, there is more compulsion inherent in
the sex offender treatment program and its polygraph requirement than there is in the loss of a job
because of the penalty of prison. The fact that Mr. Rogers actually made a statement that also can be
used to revoke his supervised release, rather than asserting a privilege, is not relevant to the analysis
of whether that statement was voluntary.
III.

The United States Supreme Court should grant the Petition for a Writ of
Certiorari to resolve the significant issues that surround this mature and
significant split among the circuits and states.

The Court should take this opportunity to resolve this mature circuit split. The First, Ninth,
Tenth, Circuits have now ruled on this issue. The First Circuit have adopted one means of resolving
the issue with the Ninth, Tenth circuits deciding the issue in another. The validity of the search
should not depend on geography and the happenstance of living in Maine versus California.
Moreover, this issue continues to cause difficulty in the administration of sex offender
treatment. This difficulty is apparent in a very recent decision from the Eighth Circuit:
At the revocation hearing, the parties disputed what evidence was admissible under
the special condition stating “[t]he results of polygraph examinations will not be used
for the purpose of revocation of supervised release.” The government argued that the
condition required only the exclusion of the results of the polygraph examination.
Trimble interpreted the condition more broadly, arguing it operated to exclude not
only the polygrapher's detection of deception but also Trimble's statements during the
polygraph examinations and interviews, and all evidence derived from his statements

25

during the polygraph examinations, including his subsequent admissions to his
probation officer related to contact with the minor and the grandmother's
corroborating statements. According to Trimble, the condition granted him
“immunity” coextensive with the Fifth Amendment because otherwise the
requirement to participate in polygraph examinations would violate his Fifth
Amendment right against self-incrimination.
United States v. Trimble, --F.4th-- (8th Cir 2021) 2021 WL 2603177 Slip at 1. The use of polygraph
examinations to monitor sex offenders is ubiquitous across the country. It is present in all federally
mandated sex offender treatment but also all state programs. Until the Court provides guidance this
problem will persist.
The most significant reason the Court should resolve this circuit split is importance of Fifth
Amendment protection, and limits placed on our Government by the Founders. While monitoring
people who are widely considered to represent a threat to others is important it cannot be done in this
manner consistent the Court’s precedent. The right not to incriminate oneself should remain a strong
protection against unjustifiable governmental intrusion.
CONCLUSION
The Supreme Court Should review the conclusion of the United States Court of Appeals
for the First Circuit and Grant this petition for writ of certiorari.
Dated at Portland, Maine this 16th day of July 2021.

Robert C. Andrews
Attorney for Brian K. Rogers
Bar Number 88418
ROBERT C. ANDREWS ESQUIRE P.C.
117 Auburn Street Suite 201
Portland, ME 04103
(207) 879-9850

26

